NO. _________
In the

Supreme Court of the United States
________________

MATTHEW REID HINSON
PETITIONER,
v.
OFFICER R.A. BIAS, ET AL.,
RESPONDENTS.
________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
________________

APPLICATION TO
ASSOCIATE JUSTICE CLARENCE THOMAS
FOR AN EXTENSION OF TIME TO FILE
A PETITION FOR WRIT OF CERTIORARI
________________
Val Leppert
KING & SPALDING LLP
1180 Peachtree St., NE
Atlanta, GA 30309
Telephone: (404) 572-4600
Facsimile: (404) 572-5100
vleppert@kslaw.com

Counsel for Petitioner Matthew R. Hinson
October 29, 2019

TO:

THE HONORABLE CLARENCE THOMAS
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE ELEVENTH CIRCUIT
Pursuant to Supreme Court Rule 13.5, petitioner Matthew R. Hinson

respectfully seeks a 60-day extension of the time for filing a petition for a writ of
certiorari to and including January 11, 2020. Unless an extension is granted, the
current deadline for filing her petition for certiorari is November 12, 2019.
In support of this request, Mr. Hinson states as follows:
1.

The U.S. Court of Appeals for the Eleventh Circuit rendered its decision

on June 14, 2019, and denied a timely petition for rehearing and rehearing en banc
on August 14, 2019. This Court has jurisdiction under 28 U.S.C. § 1254(1).
2.

Mr. Hinson seeks vacatur of the Eleventh Circuit’s judgment and

dismissal of the interlocutory appeal, by Officers R.A. Bias, B.K. Kremler, S.T.
Williams, Z.M. Anderson, and Rob Schoonover, of the district court’s order denying
the Officers summary judgment on the basis of qualified immunity.
3.

A copy of the Eleventh Circuit’s June 14, 2019 opinion, and a copy of its

August 14, 2019 order denying rehearing and rehearing en banc, are attached to this
Application as Exhibits A and B.
4.

Proceeding pro se, Mr. Hinson brought a § 1983 excessive-force claim

alleging that the Officers needlessly struck him six times while he was on the ground
and not resisting arrest. The Officers moved for summary judgment on the basis of
qualified immunity, claiming in their affidavits that Mr. Hinson was resisting arrest.
1

The district court carefully reviewed the record and denied summary judgment in a
detailed order, concluding that the surveillance video, when viewed in the light most
favorable to Mr. Hinson, would allow a reasonable juror to conclude that Mr. Hinson
was not resisting arrest.
5.

On appeal, neither the Officers nor the Eleventh Circuit panel opinion

addressed the core qualified-immunity issues. Instead, the Eleventh Circuit panel
reviewed and rejected the district court’s conclusion that the video evidence presented
genuine issues of material fact about Mr. Hinson’s conduct during his arrest. That
review exceeded the Eleventh Circuit’s limited interlocutory jurisdiction.
6.

This Court’s decisions in Johnson v. Jones, 515 U.S. 304 (1995) and

Behrens v. Pelletier, 516 U.S. 299 (1996), establish that the Eleventh Circuit lacked
jurisdiction to consider an appeal that raised only the district court’s nonfinal
evidence-sufficiency ruling, when that ruling found genuine questions as to whether
specific conduct—Mr. Hinson’s supposed resistance—occurred.
7.

On June 5, 2017, the Eleventh Circuit on its own motion appointed the

undersigned Val Leppert to represent Mr. Hinson. Good cause, including the press
of other work, exists to grant the requested extension. Counsel’s obligations include
the following:
•

Preparing the appellant’s brief in R.J. Reynolds Tobacco Co. v. Deborah
Neff, Fla. 4th DCA 2019-2646 (due Oct. 29, 2019)

2

•

Preparing the appellant’s brief in R.J. Reynolds Tobacco Co. v. Frances
Bessent-Dixon, Fla. 1st DCA 2019-1995 (due Nov. 8, 2019).

•

Preparing the appellant’s brief in R.J. Reynolds Tobacco Co. v. Richard
Mahfuz, Fla. 4th DCA 2019-2236 (due Nov. 22, 2019).

•

Providing legal issues support in the trial of Gloger v. R.J. Reynolds
Tobacco Co., et al., Fla. 11th Cir. 11-23377 CA 21, (Oct. 21–Nov. 8, 2019)

•

Providing legal issues support during pretrial for Dolby Labs, Inc. v.
Adobe, No. 18-cv-01553 (N.D. Cal.) (pretrial conference scheduled
December 20, 2019)

8.

On October 15, 2019, Craig D. Feiser, appellate counsel for the Officers,

stated that he does not object to this extension.

WHEREFORE, Mr. Hinson respectfully requests that his application for an extension
of time in which to file a petition for certiorari be granted.
Respectfully submitted,
/s/ Val Leppert
Val Leppert
KING & SPALDING LLP
1180 Peachtree St., NE
Atlanta, GA 30309
Telephone: (404) 572-4600
Facsimile: (404) 572-5100
vleppert@kslaw.com
Counsel for Petitioner

DATED October 29, 2019

3

